Nos. 19-465, 19-518

In The

Supreme Court Of The United States
Bret Chiafalo, Levi Jennet Guerra, and Esther Virginia John,
Petitioners,
v.
State of Washington,
Respondent.
Colorado Department of State,
Petitioner,
v.
Micheal Baca, Polly Baca, and Robert Nemanich
Respondents.
CERTIFICATE OF SERVICE

I, L. Lawrence Lessig, counsel for Presidential Electors, hereby
certify that on February 11, 2020, I caused one copy of the Application
To Exceed Word Limits to be served by first-class mail and email on the
counsel below. I further certify that all parties required to be served
have been served.
Noah Purcell
Office of the Attorney General
1125 Washington Street, SE
P.O. Box 40100
Olympia, WA 98504-0100
noahp@atg.wa.gov
(360) 753-2536
Attorney for Respondent in Chiafalo

